HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of National Institute of Environmental Health Sciencess Award Process for
a Contract With Organization Development Systems, Inc.," (A-04-06-01034)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of National Institute of
Environmental Health Sciencess Award Process for a Contract With
Organization Development
Systems, Inc.," (A-04-06-01034)
December 26, 2006
Complete Text of Report is available in PDF format (95 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the National Institute of Environmental Health Sciences (NIEHS) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
NIEHS partnered with the Environmental Protection Agency to identify and evaluate environmental health issues in the storm-affected areas. To accomplish this task, NIEHS modified an existing labor-hours contract with Organization Development Systems, Inc. (OD). Our objective was to determine whether NIEHS complied with FAR and HHSAR requirements during the award process involving OD. NIEHS complied with the requirements.